                           Office of Inspector General
                          Corporation for National and
                                   Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE'S
FISCAL YEAR 2006 FINANCIAL STATEMENTS

         Audit Report Number 07- 01




                                          ZT"~NAL
                                          COMMUNITY
                                          SERVICE-




                       Prepared by:

              COTTON & COMPANY LLP
             635 Slaters Lane, Fourth Flool
               Alexandria, Virginia 22314




This report was issued t o Corporation management on November 15, 2006.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than May 15, 2007, and complete its corrective
actions by November 15, 2007. Consequently, the reported findings d o not
necessarily represent the final resolution of the issues presented.
                                       $h;'F-&hAL&
                                                 '
                                       COMMUNITY
                                       SERVICE-
                                              GENERAL
                             OFFICEOF INSPECTOR
                                       November 15,2006

TO:            David Eisner
               Chief Executive Oficer

FROM:          Robert Shadowens
               Deputy Inspector

SUBJECT:       Audit of the Corporation for National and Community Service's Fiscal Year 2006
               Financial Statements, Audit Report Number 07-01

We contracted with the independent certified public accounting firm of Cotton & Company
(Cotton) to audit the financial statements of the Corporation for National and Community
Service (Corporation) as of September 30, 2006 and 2005, and for the years then ended. .The
contract required that the audit be performed in accordance with generally accepted government
auditing standards.

In its audit, Cotton found

       The fmancial statements were fairly presented, in all material respects, in conformity with
       generally accepted accounting principles;

       Reportable conditions kom the Fiscal Year 2005 audit were determined to be closed;

       A reportable condition on Financial Reporting for Fiscal Year 2006;

       An issue of noncompliance with laws and regulations it tested.

Cotton & Company is responsible for the attached auditor's report, dated November 13, 2006,
and the conclusions expressed therein. The Office of Inspector General does not express an
opinion on the Corporation for National and Community Service's Financial Statements or
Cotton's conclusions about the effectiveness of internal control or compliance with laws and
regulations.

The Corporation's response to the audit report is included as an Appendix.

Attachment

cc:
Nicola Goren,Chief of Staff
Frank Trinity,General Counsel
Jerry Bridges, Chief Financial Officer
William Anderson, Deputy CEO for Financial Management
S h e w Wright. Audit Resolution Coordinator
                                                      *
                         1201 New York Avenue, NW Suite 830, Washington, DC 20525
                                            *                     *
                            202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                             Senior Corps   * AmeriCorps * Learn and Serve America
 Cotton6
Company

Office of Inspector General
Corporation for National and Community Service




We have audited the accompanying Statements of Financial Position of the Corporation for
National and Community Service (Corporation) as of September 30,2006, and September
30,2005, and the related Statements of Operations and Changes in Net Position, Budgetary
Resources, and Cash Flows for the years ended September 30,2006, and September 30,
2005. These fmancial statements are the responsibility of Corporation management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial statement audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance
that the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting amounts and disclosures in the fmancial statements. An
audit also includes assessing accounting principles used and significant estimates made by
management, as well as evaluating overall fmancial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the fmancial position of the Corporation at September 30,2006, and September 30,
2005, and the results of its operations and changes in its net position, budgetary resources,
and cash flows for the years ended September 30,2006, and September 30,2005, in
conformity with accounting principles generally accepted in the United States of America.
In accordance with Government Auditing Standards, we have also issued our reports dated
November 13,2006, on our consideration of the Corporation's internal control over financial
reporting and on our tests of its compliance with provisions of laws and regulations. Our
reports on internal control and compliance are an integral part of an audit conducted in
accordance with Government Auditing Standards and, in &onsideringthe results of our audit,
those reports should be read together with this report.


COTTON& COMPANY
              LLP



Alan Rosenthal, CPA
Partner


November 13,2006
Alexandria, Virginia
                       Corporation for National and Community Sewice
                               Statements of Financial Position
                                     As of September 30
                                             (dollars in thousan&)


ASSETS

Fund Balance with Treasury (Note 2)
Trust Investments and Related Receivables (Note 3)
Advances to Others
Accounts Receivable, Net (Note 4)
Property and Equipment, Net (Note 5)
   Total Assets


LIABILITIES

Trust Service Award Liability (Note 6)
Grants Payable
Accounts Payable
Actuarial FECA Liability (Note 8)
Other Liabilities
Accrued Annual Leave
Advances from Others
Capital Lease Liability (Note 7)
   Total Liabilities

Commitments and Contingencies (Note 14)

NET POSITION

Unexpended Appropriations
Cumulative Results of Operations
  Total Net Position (Note 9)

Total Liabilities and Net Position




                  The accompanying notes are an integral part of thesefinancial statements.
                       Corporation for National and Community Service
                     Statements of Operations and Changes in Net Position
                             For the Years Ended September 30
                                             (dollars in thousmdr)


REVENUE

Appropriated Capital Used
Appropriations Transferred to the Trust Fund (Note 10)
Interest
Revenue from Services Provided
Other
   Total Revenue


EXPENSES

AmeriCorps
Seniorcorps
Learn and Serve America
   Subtotal - Program Expenses
Earmarked Grants
Office of the Inspector General
  Total Expenses (Note 11)


Excess of Revenue Over Expenses


NET POSITION

Excess of Revenue over Expenses
Increase in Unexpended Appropriations, Net v o t e 13)
Increase in Net Position, Net
Net Position, Beginning Balance
   Net Position, Ending Balance (Note 9)




                  The accompanying notes are an integral part of thesefinancial statements.
                        Corporation f o r National and Community Sewice
                                     Statements of C a s h Plows
                              F o r t h e Years E n d e d September 30
                                              (dollars ix thousands)


CASH FLOWS FROM OPERATING A C T M T I E S
Excess of Revenue over Expenses

Adjustments Affecting Cash Flow:
  Appropriated Capital Used
  Appropriations Received in Trust
  Decreasei(1ncrease) in Accounts Receivable
  Decreasel(1ncrease) in Interest Receivable
  Decreasel(1ncrease) in Advances
  Increase/(Decrease) in Accounts Payable and Other Liabilities
  Increase/(Decrease) in FECA and Annual Leave Liabilities
  Increase/(Decrease) in Capital Lease Liability
  Increase/(Decrease) in Trust Liability
  Iucrease/(Decrease) in Grants Payable
  Amortization of Premium/Discount on Investments
  Depreciation, Amortization, and Loss on Disposition of Assets
     Total Adjustments
Net Cash Provided (Used) by Operating Activities

CASH FLOWS FROM INVESTING A C T M T I E S
Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided (Used) in Investing Activities

CASH FLOWS FROM FINANCWG A C T M T I E S
Appropriations Received
CancelediRescinded Appropriations
Net Cash Provided by Financing Activities


Net Increase/(Decrease) in Fund Balance with Treasury

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending

                  The accompanying notes are an integral part of these financial statements.
                        Corporation for National and Community Service
                              Statements of Budgetary Resources
                              For the Years Ended September 30
                                              (dollars in fhousandrl   '




BUDGETARY RESOURCES

Unobligated balance, brought forward, October 1

Recoveries of prior year unpaid obligations

Budget authority
  Appropriations received
  Spending authority from offsetting collections
     Collected
  Change in receivable from Federal sources
  Change in unfilled customer orders
     Advance received
     Without advance from Federal sources
     Anticipated for rest of year, without advances
  Permanently not available
      Total budgetary resources


STATUS OF BUDGETARY RESOURCES

Obligations Incurred
  Direct

Unobligated balances
  Apportioned
  Other available
  Unobligated balances not available
      Total status of budgetary resources


                                                                                               (Continued)




                   The accompanying notes are an integralpart of these financial statements.
                          Corporation for National and Community Service
                                Statements of Budgetary Resources
                                For the Years Ended September 30
                                               (dollars in thousands)


(Continued)

CHANGE IN OBLIGATED BALANCE                                                       2006            2005

Obligated balance, net
  Unpaid obligations, brought forward, October 1
  Less uncollected customer payments - brought forward, October 1
  Adjustment for 2004 carry forward balance
  Obligations incurred, net
  Less gross outlays
  Less recoveries of prior year unpaid obligations, actual
  Change in uncollected customer payments from Federal sources
      Total unpaid obligated balance, net, end of period

Obligated balance, net, end of period
  Unpaid obligations                                                          $ 1,185,078      $ 1,083,950
  Less uncollected customer payments from Federal sources                          (3,455)          (2,789)
      Total unpaid obligated balance, net, end of period                      $ 1,181,623      $ 1,081,161



OUTLAYS

Gross outlays
Less offsetting collections
Less distributed offsetting receipts
      Net outlays




                     The accompanying notes are an integralpart of thesefinancial statements
NOTES TO THE FINANCIAL STATEMENTS
NOTE I -SUMMARY OF SIGNIFICANTACCOUNTING POLICIES
A. Basis of Presentation
These financial statements have been prepared to report the financial position, results of operations,
cash flows, and budgetary resources ofthe Corporation for National and Community Service
(Corporation), as required by the Government Corporation Control Act (31 USC 9106), the National
and Community Service Act of 1990, as amended (42 USC 12651), and the President's February 27,
2004, Executive Order on National and Community Service Programs. These financial statements
have been prepared from the books and records of the Corporation. The Statements of Financial
Position, Operations and Changes inNet Position, and Cash Flows have been prepared in
accordance with accounting principles generally accepted in the United States of America (GAAP)
as applicable to Federal governmental corporations and include the Corporation's activities related
to providing grants and education awards to eligible participants. The Statement of Budgetary
Resources, required by Executive Order, has been prepared in accordance with guidance prescribed
in Office of Management and Budget (OMB) Circular A-136 Financial Reporting Requirements,
which constitutes generally accepted accounting principles for Federal governmental entities as
specified by the AICPA's Statement on Auditing Standards 69, The Meaning of Presents Fairly in
Conformiry With Generally Accepted Accounting Principles. The Corporation is not subject to
income tax.

The principal financial statements of the Corporation are the:

         Statement of Financial Position;
         Statement of Operations and Changes in Net Position;
         Statement of Cash Flows; and
         Statement of Budgetary Resources.

The notes to the financial statements are considered an integral part of the financial statements.

B. Reporting Entity

The Corporation was created by the National and Community Service Trust Act of 1993 (Public
Law 103-X2,42 USC 12651). The Corporation provides grants and other incentives to States, local
municipalities, and not-for-profit organizations to help communities meet critical challenges in the
areas of education, public safety, human needs, and the environment through volunteer service. The
Corporation oversees three national service initiatives:

         AmeriCorps is the national service program that annually engages Americans of all ages
         and backgrounds in full-time and sustained part-time community service and provides
         education awards in return for such service. AmeriCorps includes State, National, Tribes
         & Territories (StateMational); National Civilian Communiry Corps (NCCC); and
         Volunteers In Service To America (VISTA) programs.

    .    The National Senior Service Corps is a network of people age 55 and older who
         participate in the Foster Grandparent Program, the Senior Companion Program, and the
         Retired and Senior Volunteer Program. These programs tap the experience, skills, talents,
         and creativity of America's seniors.

         Learn and Serve America supports and promotes service learning in schools, universities,
         and communities. Through structured service activities that help meet community needs,
         nearly one million students improve their academic learning, develop personal skills, and
         practice responsible citizenship.
C.   Budgets and Budgetary Accounting

The activities of the Corporation are primarily funded through the Labor-Health and Human Service,
and Education appropriation bill. For fiscal year 2006, the bill provided one amount to carry out
Domestic Volunteer Service Act (DVSA) programs, a second amount to carry out National and
Community Service Act (NCSA) programs, a third amount for salaries and expenses to cover
administration of both DVSA and NCSA programs, and a fourth amount to cover necessary expenses
of the Office of Inspector General (OIG).

Appropriations covering DVSA programs as well as salaries a11d expenses are available for
obligation by the Corporation for one fiscal year only, while appropriations for NCSA and OIG are
available for obligation by the Corporation over two fiscal years.

In addition, part of the NCSA appropriations are provided on a no-year basis for the National Service
Trust (the Trust), a fund within the Corporation primarily used to provide education awards to
eligible participants. The Trust provides awards for AmeriCorps members under AmeriCorps*State
and National, Tribes and Territories, AmeriCorps*NCCC, and AmeriCorps*VISTA.

D. Basis of Accounting

Transactions are recorded in the accounting system on an accrual basis and a budgetary basis. Under
the accrual method of accounting, revenues are recognized when earned and expenses are recognized
when a liability is incurred, without regard to receipt or payment of cash. Appropriations are
considered earned for the Corporation's National Service Trust Fund and are recognized as revenue
when received in the Trust Fund.

The recognition of budgetary accounting transactions is essential for compliance with legal
constraints and controls over the use of Federal funds. Budgetary accounting principles are designed
to recognize the obligation of funds according to legal requirements, which in many cases is prior to
the occurrence of an accrual-based transaction. Thus, the Statements of Financial Position,
Operations and Changes in Net Position, and Cash Flows differ from the Statement of Budgetary
Resources and other financial reports submitted pursuant to OMB directives for the purpose of
providing information on how budgetary resources were made available and monitoring and
controlling the use of the Corporation's budgetary resources.

E. Fund Balance with Treasury

The Corporation does not maintain cash in commercial bank accounts. Cash receipts and
disbursements are processed by the U.S. Treasury. The Fund Balance with Treasury represents
annual, multi-year, and no-year funds, which are maintained in appropriated and m s t funds that are
available to pay current and future commitments.

Funds maintained in the National Service Trust are restricted for use in paying service awards earned
by eligible participants as well as interest forbearance, and are not available for use in the current
operations of the Corporation.

The majority of the funds received from individuals and organizations in the form of gifts and
donations for the support of service projects are restricted for a particular use.
F. Trust Investments and Related Receivables

By law, the Corporation invests funds, which have been transferred to the Trust, only in interest-
bearing Treasury obligations of the United States. These Treasury obligations are referred to as
market-based specials, which are similar to government securities sold on the open market, and
consist of Treasury notes, bonds, bills and one-day certificates.

The Corporation classifies these investments as held-to-maturity at the time of purchase and
periodically reevaluates such classification. Securities are classified as held-to-maturity when the
Corporation has the positive intent and ability to hold securities to maturity. Held-to-maturity
securities are stated at cost with corresponding premiums or discounts amortized over the life of the
investment to interest income. Premiums and discounts are amortized using the effective interest
method.

Interest receivable represents amounts earned but not received on investments held at year-end.
Prepaid interest is the amount of interest earned on a security since the date of its last interest
payment up to the date the security is purchased by the Corporation. Such interest, if any, at year-
end is included in the interest receivable balance.

G . Advances to Others

The Corporation advances funds, primarily in response to grantee drawdown requests, to facilitate
their authorized national and community service and domestic volunteer service activities. The cash
payments to grantees, in excess of amounts eamed under the terms of the grant agreements, are
accounted for as advances. At the end of the fiscal year, the total amount advanced to grantees is
compared with the Corporation-funded amount earned by the grantees. Grantee expenses are
determined from reports submitted by the grantees. For those grantees with advances exceeding
expenses, the aggregate difference is reported as the advance account balance.

H. Accounts Receivable

Accounts receivable represents amounts due to the Corpomtiou primarily under Federal and non-Federal
reimbursable agreements, grantee audit resolution determinations, and outstanding travel advances due
h m employees. These amounts are reduced by an allowance for uncollectible accounts based on the age
of each past due account.

I.   Property and Equipment

The Corporation capitalizes properly and equipment at historical cost for acquisitions of $10
thousand or more, with an estimated useful life that extends beyond the year of acquisition. The
assets reported include telephone equipment, computer systems equipment, copiers, computer
software, furniture, and assets under capital leases. These assets are depreciated (or amortized) on a
straight-line basis over estimated useful lives ranging from two to 10 years, using the half-year
convention. Normal maintenance and repair costs on capitalized property and equipment are
expensed when incurred.

J.   Trust Service Award Liability

The Trust service award liability represents unpaid earned, and expected to be earned, education
awards and eligible interest forbearance costs, which are expected to be used. These amounts relate
to participants who have completed service or are currently enrolled in the program and are expected
to earn an award, based on the Corporation's historical experience.
K. Grants Payable

Grants are made to nonprofit organizations, educational institutions, states, municipalities, and other
external organizations. Grants become budgetary obligations, but not liabilities, when they are
awarded. At the end of each fiscal year, the Corporation reports the total amount of unreimbursed
authorized grantee expenses, earned under the terms of grant agreements, as grants payable.

L. Accounts Payable

The Corporation records as liabilities all amounts that are likely to be paid as a direct result of a
transaction or event that has already occurred. Accounts payable represents amounts due to both
Federal and non-Federal entities for goods and services received by the Corporation, but not paid for
at the end of the fiscal year.

M. Actuarial FECA Liability

The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job-related
injury or occupational disease. Claims incurred for benefits for Corporation employees under FECA
are administered by the Department of Labor (DOL) and later billed to the Corporation. The
Corporation's actuarial liability for workers' compensation includes costs incurred but unbilled as of
year-end, as calculated by DOL, and is not funded by current appropriations.

N. Other Liabilities

Other liabilities include amounts owed but not paid at the end of the fiscal year for payroll and
benefits; VISTA stipends; and the portion of the liability for Federal Employees' Compensation Act
charges incurred and billed but unpaid.

0. Accrued Annual Leave

Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal year-end.
Each year, the balance in the accrued annual leave account is adjusted to reflect current year pay
rates and leave balances. Annual leave is funded from current appropriations when used. As unused
annual leave is used in the future, financing will be obtained from appropriations current at that time.
Sick leave and other types of non-vested leave are expensed when used.

P. Advances from Others

Advances from others consist of advances from other government agencies related to interagency
agreements the Corporation entered into to provide services to those agencies.

Q. Net Position

Net position is composed of unexpended appropriations and cumulative results of operations.
Unexpended appropriations are funds appropriated and warranted to the Corporation that are still
available for expenditure as of the end of the fiscal year. Cumulative results of operations represent
the net differences between revenues and expenses h m the inception of the Corporation.
R. Revenues
     Appropn'ated Capital Used
The Corporation obtains funding for its program and operating expenses through annual and multi-
year appropriations.
      - -  -         Appropriations are recognized on an accrual basis at the time they are used to
pay program or admin&trative expenses, except for expenses to be funded by future appropriations
such as earned but unused annual leave. Appropriations expended for property and equipment are
recognized as used when the property is purchased. Funds not used for eligible expenses within the
allowed time must be returned to Treasury. Appropriations received for the Corporation's Trust are
recognized as revenue when received in the Trust Fund. Trust appropriations do not expire with the
passage oftime and are retained by the Corporation in the Trust until used for eligible education
service award purposes.
     Interest
Interest income is recognized when earned. Treasury notes and bonds pay interest semiannually,
based on the stated rate of interest. Interest on Treasury bills is paid at maturity. Interest income is
adjusted by amortization of premiums and discounts using the effective interest method.
     Revenue from Services Provided
The Corporation receives income from reimbursable service agreements that is recorded as revenue
from services provided. Revenue from services provided is recognized when earned, i.e., goods have
been delivered or services rendered.
     Other Revenue
Other revenue consists of gifts and donations for the support of service projects from individuals and
organizations.

S.   Retirement Benefits

The Corporation's employees participate in either the Civil Service Retirement System (CSRS) or
the Federal Employees Retirement System (FERS). FERS was established by the enactment of
Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 3 1, 1983. Employees hired prior to January I, 1984, elected to join
FERS and Social Security or remained in the CSRS.

For employees covered by CSRS, the Corporation contributes 8.51 percent of their gross pay
towards retirement. For those employees covered by FERS, the Corporation contributes 1I S O
percent of their gross pay towards retirement. Employees are allowed to participate in the Federal
Thrift Savings Plan (TSP). For employees under FERS, the Corporation contributes an automatic
one percent of basic pay to TSP and matches employee contributions up to an additional 4 percent of
pay, for a maximum Corporation contribution amounting to 5 percent of pay. Employees under
CSRS may participate in the TSP, but will not receive either the Corporation's automatic or
matching contributions.

The Corporation made retirement contributions of $571 thousand and $622 thousand to the CSRS
Plan, and $7.06 million and $6.63 million to the FERS and TSP Plans in fiscal years 2006 and 2005,
respectively.

T. Use of Estimates

The preparation of financial statements requires management to make estimates and assumptions that
affect the reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities
at the date of the financial statements, and the reported amounts of revenues and expenses during the
reporting period. Actual results could differ from these estimates.
U. Supplemental Cash Flow Information

Interest paid during fiscal 2006 and 2005 was $1 l thousand and $16 thousand, respectively. Property and
equipment acquired under capital lease obligations totaled $435 thousand in fiscal 2005. There were no
capital acquisitions in fiscal 2006.

V. Reclassification of 2005 Financial Statements

Net Position in the Statement of Financial Position for fiscal 2005 was reformatted to conform to the fiscal
2006 presentation. The fiscal 2005 Statement of Budgetary resources was reformatted to conform to the
July 2006 changes required by OMB Circular A-136, Financial Reporting Requirements. These changes
had no affect on Total Net Position, Budgetary Resources, Status of Budgetary Resources, or Relationship
of Obligations to Outlays presented in the statements.




NOTE 2 -FUND BALANCE WITH TRFASURY
U.S. Government cash is accounted for on an overall consolidated basis by the U S . Department of Treasury.
The Fund Balance with Treasury line on the Statement of Financial Position consists ofthe following:
        Appropriated Funds - Appropriated funds are received through congressional appropriations to
        provide financing sources for the Corporation's programs on an annual, multi-year, and no-year basis.
        The funds are warranted by the United States Treasury and apportioned by the Office of Management
        and Budget.
        Trust Funds -Trust Funds are accounts designated by law for receipts earmarked for specific
        purposes and for the expenditure ofthese receipts. Funds from the Corporation's Trust Fund may be
        expended for the purpose of providing an education award or interest forbearance payment and must
        always be paid directly to a qualified institution (college, university, or other approved educational
        institution, or a lending institution holding an existing student loan) as designated by the participant,
        as well as awards under the President's Freedom Scholarship Program.
        Gift Funds - Gift Funds are funds received from individuals and organizations as donations in
        furtherance of the purposes of the national service laws.
NOTE 3 - TRUST INVESTMENTSAND RELA TED RECEIVABLES
The composition of Trust Investments and Related Receivables at September 30 is as follows:


           Trust Investments and Related Receivables as of September 30
                                     (doltors br rtrournnds,
                                                                        2006       2005
 Investments, Carr) ing Value                                         S 443,602 $ .100,074
 Investn~cniand lnreresr Receivable                                       1,727      4,67 1
 'I'otnl                                                              S 448,329         $ 404,745




                       Amortized Cost and Fair Value of Investment Securities as of September 30
                                                               (dottnrs in ~ h w m m f v )
                                               2006                                                               2005
                    .Amortized   Unrealired          linrcaliml            Fair          hnwrlircd   llnrealired      Unrealized      Fair
    Securities        Cost            Gains             (Losses)          Value              Cost        Gains            (Losses)    Value
Notes              $ 406,825     $             -    $     (4,520) $ 402,305 $ 370,896 $                           -   $     (6,324) $ 364,572
Bills                  36,777               124                      36,901    29,178                            63                    29,241
 BonJs
 Total             %113,602      5          124

At September 30,2006, the notes held at year-end bad an interest rate range of 3.0% to 6.625% and an
outstanding maturity period of approximately one day to five years. The bills held at year-end had an interest
rate range of 4.50% to 4.955% and were all due to mature within 46 days. The par values of these bills range
from $1.2 million to $4.6 million.

As required by the Strengthen AmeriCorps Program Act, beginning in fiscal 2003 the Corporation has set aside
in reserve a portion of the funds appropriated to the Trust in the event that its estimates used to calculate
obligational amounts for education awards prove to be too low. As of September 30, 2006, $39.8 million of
the Corporation's investment account has been set aside for this reserve.


Investments held at September 30 mature according to the following schedule:




Due after 1 year up to 5 years                          253,855          250,912                         243,114          237,808
Total                                               % 443,602 $ 439,206                              $   400,074 3 393,813
 NOTE 4 -ACCOUNTS RECEIVABLE, NET


                        Accoui~tsReceivable as of September 30
                                       (dollars in rhousan&
                                                                            2006      2005
 Accounts receivable                                                   6      3.113 6   1,240
 I esr. allownnce for loss on recclvdblu\                                     1,058     1,053
 Accounls Receivable, Net                                              $-    2,055 $     3,187



NOTE 5 - PROPERTYAND EQUIPMENT, NET


                                  General Property and Equipment as of September 30
                                                         (dollors m Iho~tsanLs)
                                                          2006                                      2005
                                                           1 . e ~          Nrf                     1.rss:         Kc1
                   Service Life                       Accumulatrd           Net                  Arrumulared       Yet
   hlajor Class      (Years)              Cosl         Deprecislion     Buuk Value      Cosr     Dcprecialion   Book Value
 Equipment           3-10          $       3,320 S               1,381 $      1.939 $    2.191 S       1,593 $           598
l~apitalleases       3-5                     435                   140          295        435            51             384   1
 ADP software         2                    6,274                 5,350          924      5,042         5,042
 Totat                                                                $,     3,158 %     7,668                           982


NOTE 6 -SERVICE A WARD LIABILITY - NATIONAL SERVICE TRUST
Individuals who successfully complete terms of service in AmeriCorps programs earn education awards,
which can be used to make payments on qualified student loans or for educational expenses at qualified
educational
~~~~~  ~    ~institutions.
                 -    ~    ~The- awards. which are available for use for a oeriod of uo to seven vears after

the benefit has been earned, are paid from the National Service Trust. The Trust also pays forbearance
interest on qualified student loans during the period members perform community service as well as
awards under the President's Freedom Scholarship Program. The award liability components related to
education awards and interest forbearance have been adjusted, based on historical experience, to reflect
the fact that some eligible participants may not use these benefits. The service award liability was
composed of the following as of September 30:

                     Service Award Liability as of September30
                                       (dollors irt IhoasunLs)
                                                                          2006         2005
 Educat~nnawards                                                       $1,038,985    6 921,086
 Interest forbearance
 Presidential Freedom Scholarship Program
 Total estimated service award liability




The net service award liability as of September 30, 2006, increased by approximately $6.9 million from
the net service award liability as of September 30,2005. This change was largely due to new member
enrollments and an increase in the number of members still serving during the year.
NOTE 7 - U P I T A L AND OPERATING LEASES
A. Capital Leases
The Corporation has entered into lease agreements for copy machines. These leases vary from 3 to 4 year
terms and are deemed to be capital leases. The costs of the copiers have been recorded as property and
equipment (also see Note 5). The following is a schedule by year of the future minimum payments under
these leases:


         Capital Leases Future Minimum Due as of September 30
                              (ddlurs ill ihorrrunds)


Fiwal Year 2006
Fiscal Year 2007                                               109     109
Fiscal Year 2008                                               109     109
Fiscal Year 2009                                               109     109
Fiscal Year 2010                                                73      73
Total future minimum lease payments                            400     517
Less amounts rcpre\cntlng tnferesr                              73     115
 Total                                                    $    327 $
                                                                   0
                                                                   2   -

B. Operating Leases
The Corporation leases offtce space through the General Services Administration (GSA). GSA charges
the Corporation a Standard Level Users Charge that approximates commercial rental rates for similar
properties. NCCC also leases housing facilities for its campuses. Additionally, the Corporation leases
motor vehicles on an annual basis through GSA under an Interagency Fleet Management Service
agreement for the National Civilian Community Corps. Commitments of the Corporation for future rental
payments under operating leases at September 30 are as follows:




   201 1           8.864          1.107             198       10,169
'Total        $   41,685 1$                 $               ~-... 3.46313
                                                    905 S 17,761             ---
                                                                              $    5,664 S     909 6 52,886

NOTE 8 - WORKERS' COMPENSATION
The Corporation's actuarial liability for future workers' compensation benefits (FECA) was $12.5 million
and $12.3 million as of September 30, 2006 and 2005, respectively. The amount includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The
actuarial liability is determined using a method that utilizes historical benefit payment patterns related to a
specific incurred period to predict the ultimate payments related to that period. Consistent with past
practice, these projected annual benefit payments have been discounted to present value using the Office of
Management and Budget's economic assumptions for 10-year Treasury notes and bonds.
NOTE 9 -NET POSITION
Net position consists of unexpended appropriations and cumulative results of operations. Component balances
are separately maintained for the Gift Fund, Trust Fund and Appropriated Funds. Cumulative results of
operations represents the differences between revenues and expenses since the Corporation's inception.




 Cumularive results of operations                    74 3        194,980          (15,913)        179,801
 Total Net Position                        S ...   - 743
                                                     ..     $    194,980    ci   856,214
                                                                                   .. -      3   1,051,937




 Cumulative results of operations                  1,011         144,950         (18,621)         127,340
 Total Net Position                        $       1,011    S    134,950 $       845,779     S     -
                                                                                                  991,740



NOTE 10- APPROPRIATIONS RECEIVED BY THE TRUST FUND
Under the Departments of Labor, Health and Human Services, and Education, and Related Agencies
Appropriations Act, 2006 (P.L. 109-149) the Trust received $138.6 million ($140 million less the one percent
government-wide rescission included in the Department of Defense Appropriations Act, 2006 (P.L. 109-148)).
The Act also authorized the Corporation to transfer additional amounts from subtitle C program funds to the
National Service Trust if "necessary to support the activities of national service participants." The Corporation
transferred $1 6.3 million to the Trust under this provision in fiscal 2006. Under the 2005 Consolidated
Appropriations Act (Public Law 108-447) the Trust received $142.8 million ($144 million less $1.2 million
Trust portion of the rescission to NCSA pursuant to the Act).       The Trust portion of the NCSA rescissions
were transferred back to NCSA, reducing the net amount of appropriations received by the Trust Fund during
each fiscal year.


NOTE I I - EXPENSES
Using an appropriate cost accounting methodology, the Corporation's expenses have been allocated among its
major programs:
AmeriCorps includes State, National, Tribes & Territories (State/National); National Civilian Community
Corps (NCCC); and Volunteers In Service To America (VISTA) programs. The State/National sub-program
includes grant expenses, as well as direct and allocated personnel and administrative costs including
AmeriCorps recruitment and Tmst operations. The NCCC sub-program includes direct and allocated
personnel and administrative costs including AmeriCorps recruitment and Trust operations. The VISTA sub-
program includes grant expenses, as well as direct and allocated personnel and administrative costs including
AmeriCorps recruitment and Trust operations.
The National Senior Service Corps (NSSC) includes the Foster Grandparent Program (FGP); Senior
Companion Program (SCP); and the Retired andsenior Volunteer Program (RSVP). The NSSC responsibility
segment includes grant expenses, as well as direct and allocated personnel and administrative costs for RSVP,
FGP, and SCP. Costs for each sub-program are reported on separately in the table.
Learn and Serve America includes grant expenses, as well as direct and allocated personnel and administrative
costs, for the Learn and Serve ~ m e r i c ~rogram,
                                           a      the President's Student Service challenge, and National
Service Leader Schools. The President's Freedom Scholarships are included in the National Service Award
expense component.
Other Program Costs
The National Service Award expense component consists ofthe Corporation's estimated expense for education
awards based on the increase in its service award liability during the year, interest forbearance costs on qualified
student loans during the period members perform community service, as well as disbursements for the
Presidential Freedom Scholarship Program. No indirect costs have been allocated to the National Service
Award expense component. The Corporation's annual appropriation includes various Congressionally
Earmarked Grants. In addition, the Corporation has reimbursable agreements with state agencies whereby the
Corporation awards and administers grants to a list of grantees selected and funded by the State. No indirect
costs have been allocated td these grants. The Office of Inspector General (OIG) receives a separate
appropriation. No indirect costs have been allocated to the OIG. 'l'lle largest component of total expense is
grant funds expended.




National and Community Service Act Programs                                   308,007                         268,771
Earmarked Grants
   Congressionally Earmarked Grants                         $    8,344                     $    11,485
   DVSA State Grants                                             1,160                             980




  State, National, Tribes & Territories (Statematianal)     $ 399,882                      $ 343,905
  National Civilian Community Corps (NCCC)                       37,162                         35,706
  Volunteers In Service To America (VISTA)                      116,807                        114,635
     Subtotal                                                             $ 553,851                      $    494,246
National Senior Service Corps
  Retired and Senior Volunteer Program (RSVP)                  65,480                         62,090
  Foster Grandparent Program (FGP)                            119,773                        120,476
  Senior Companion Program (SCP)                            $ 50,702                       $ 50,719
     Subtotal                                                                 235,955                         233,285
Leam and Serve America                                                         5 1,799                         54,695
Total Earmarked Grants                                                          9.504                          12.465
Ofticc of Inspector (icncral (Ol(i)                                             7,778                           6,029
Total Expenses                                                            $   858,887                    --
                                                                                                         6 800,720
                                                        $   261,409   $        -    $   22,536     $   60,159 $    111,190 S   46,868   16   46,598   $   9,504   S

Service award expense
Total Grsnt and Related Expense                                                                        60,159      111,190

Administrative Expense
Federal employee salaries & benefits                         21,581       10,781          7,605         3,261        6.019      2,544         3,718                   3,011       58,520
Travel & transportation                                         998        4,003          4.3 19          170          287        123           146                     127        10,173
Rent, communications, & utilities                             3,114        2,564            818           445          820        346           303                     332          8,742
Program analysis & evaluation                                   771          695            698           223          407        172           521                                 3,487
P"nting & reproduction                                           79           89              95            9           17          7            12                       4            312
Other services and expenses                                   7,020        6.195          7,060         1,080          798        542           494                   4,146       27,335
Supplies & materials                                            364          934            362            86          145         62            69                     156         2,178
Depreciation, amonizdon &loss on disposition of assem           606           22              66           45           85         36            35                       2            897
Bad debt                                                         16             1              4            2            5          2             2                     -     --
                                                                                                                                                                              p~
                                                                                                                                                                                        32
l'ut!l Adminirtrstbr Erpense                                 34 14%       25.281         21.027         1.121        8.533      3,831         5.3UU                   7.778      1 1 1.676
l'utal Lrpenres by Type                                 S   399.882   S   37.162    S   116.807    1   65,480 IE   119,773 S   50.702   5    51.799   S   9.504   5   7.778   5   858,887




Grant funds expended
VISTA & NCCC stipends & benefits
Service award expense
Total Grant and Related Expense

Administrative Expense
Federal employee salaries & benefit5
Travel & transponation
Rent, communiuitiohs, & utilities
Program analysis & evaluation
Pnting & reproduction
Othcr services and expenses
NOTE I2 - NATIONAL SERVICE A WARD EXPENSE
Members participating in the Trust programs are eligible to earn a service award to pay for qualified education
expenses. The Trust also pays interest forbearance costs on qualified student loans during the period
members perform community service. The Corporation estimates the expense for national service awards
based on the increase in its cumulative service award liability during the year (see Note 6). The total service
award liability as of September 30,2006 and 2005, respectively, has been adjusted to reflect the fact that
earned awards are not always used.




I Estimated interest forbearance                                             2,440                   3,081    1
 Presideni's Frccclo~nScholarship Program                                      (99)                  3,WO
 National Service Award Expense                                      12o,2J0              %        113,503
                                                                                                    ..-




NOTE 13 - INCREASE/(DECREASE) IN UNEXPENDEDAPPROPRIATIONS, NET


            Increase/(Decresse) in Unenpendcd Appropriations, Ner as of Scptemher 30
                                            (dollors in lhousand~)
                                                                         2006                     2005
 Increases:
 Appropriations Received                                             $    919,049         $       934,482     I
 Decreases:
 Appropriated Capital Used
 Appropriations Transferred to Trust Fund
 Rescinded Appropriations
 Canceled Appropriations                                                                      ~   ~      -        ~   p




 Total Vecreascs                                                         (91 1,316)               (859,138)
 Increase/(Decreasc) in Unexpended Appropriations, Nct               S      7,733         S        75,344



NOTE I 4 - CONTINGENCIES
     Contingencies
The Corporation is a party to various routine administrative proceedings, legal actions, and claims brought by
or against it, including threatened or pending litigation involving labor relations claims, some of which may
ultimately result in settlements or decisions against the Corporation. In the opinion of the Corporation's
management and legal counsel, there are no proceedings, actions, or claims outstanding or threatened that
would materially impact the financial statements ofthe Corporation.
     Judgment Fund
Certain legal matters to which the Corporation is named a party may be administered and, in some instances,
litigated and paid by other Federal agencies. Generally, amounts paid in excess of $2.5 thousand for Federal
Tort Claims Act settlements or awards pertaining to these litigations are funded from a special appropriation
called the Judgment Fund. Although the ultimate disposition of any potential Judgment Fund proceedings
cannot be determined, management does not expect that any liability or expense that might ensue would be
material to the Corporation's financial statements.
 Cotton6
Company

Office of Inspector General
Corporation for National and Community Service


                           INDEPENDENT
                                     AUDITORS'REPORTON
                         COMPLIANCE
                                  WITH LAWSAND REGULATIONS



We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the year ended September 30,2006, and September 30,2005,
and have issued our report thereon dated November 13,2006. We conducted our audits in
accordance with auditing standards generally accepted in the United States of America and
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States.

Corporation management is responsible for complying with laws and regulations applicable to
the Corporation. As part of obtaining reasonable assurance that the Corporation's fiscal year
2006 financial statements are free of material misstatement, we performed tests of its compliance
with certain provisions of laws and regulations, noncompliance with which could have a direct
and material effect on determination of financial statement amounts. Providing an opinion on
compliance with those provisions was not, however, an objective of our audit and, accordingly,
we do not express such an opinion. The results of our tests disclosed instances of noncompliance
that are required to be reported under Government Auditing Standards and which are described
below.

The Corporation recognizes budgetary resources for reimbursements under cost-share
agreements entered into with non-federal AmeriCorps*VISTA sponsors when agreements are
executed rather than when reimbursements are received, which is required by Office of
Management and Budget (OMB) Circular A-1 1. OMB Circular A-1 1, Preparation, Submission,
and Execution of the Budget, Section 20.4(b), states:

       Budget authority may be recorded and obligations incurred against orders from
       other Federal accounts only f a n obligation is recorded by the paying account;
       obligations normally cannot be incurred against ordersfrom the public without
       an advance ....
       You cannot incur obligations against customer orders receivedfrorn non-Federal
       sources without an advance, unless a law specifically allows it.
Accordingly, the Corporation cannot record spending authority from offsetting collections for
cost-share reimbursements or incur obligations against this authority until reimbursements are
received. The Corporation may incur obligations to pay VISTA members against its Domestic
Volunteer Service Act @VSA) appropriations as well as cost-share amounts that have been
collected. If at any time, however, obligations exceed budgetary resources, an Anti-Deficiency
Act violation could occur. We were unable to determine if the Corporation was in compliance
with the Anti-Deficiency Act at all times during the fiscal year. However, unobligated balances
at September 30,2006, in the FY 2006 DVSA appropriation (Treasury Account 95 06 0103 000
0) were $54,263. If resources generated by unfilled customer orders without advance and
receivables related to cost share agreements of $1,665,182 were deducted from unobligated
balances a deficit of $1,610,919 would exist. This is an indication that the Corporation may have
been in violation ofthe Anti-Deficiency Act.

We recommend that the Corporation modify its accounting practices to comply with OMB
Circular A-1 1. We also recommend that the Corporation investigate a potential Anti-Deficiency
Act occurrence and take required corrective action if a violation occurred.


This report is intended solely for the information and use of the United States Congress,
President, Director of the Office of Management and Budget, Comptroller General of the United
States, Corporation, and Inspector General. It is not intended to be and should not be used by
anyone other than these specific parties.


COTTON& COMPANY
              LLP



Alan Rosenthal, CPA
Partner


November 13,2006
Alexandria, Virginia
 Cotton6
Company

Office of Inspector General
Corporation for National and Community Service


                          INDEPENDENT
                                    AUDITOR'SREPORTON
                     INTERNAL CONTROL
                                    OVER FINANCIAL
                                                 REPORTING



We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the years ended September 30,2006, and September 30,
2005, and have issued our report thereon dated November 13,2006. We conducted o w
audits in accordance with auditing standards generally accepted in the United States of
America and standards applicable to fmancial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States.

In planning and performing the Fiscal Year 2006 audit, we considered the Corporation's
internal control over financial reporting by obtaining an understanding of the Corporation's
internal control, determining if internal control had been placed in operation, assessing
control risk, and performing tests of controls to determine our auditing procedures for the
purpose of expressing an opinion on the fmancial statements. We limited internal control
testing to those controls necessary to achieve the objectives described in Government
Auditing Standards. The objective of our audit was not to provide assurance on the
Corporation's internal control. Consequently, we do not provide an opinion on internal
control over financial reporting.

Our consideration of internal control over fmancial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to o w attention relating to significant deficiencies in the
design or operation of the internal controls over financial reporting that, in our judgment,
could adversely affect the Corporation's ability to record, process, summarize, and report
financial data consistent with assertions by management in the financial statements. Material
weaknesses are conditions in which the design or operation of one or more of the internal
control components does not reduce, to a relatively low level, the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may
occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may occur and not be detected.
We noted one matter, described in Exhibit 1, involving internal control over financial
reporting and its operation that we consider to be a reportable condition. We do not consider
this reportable condition to be a material weakness. The status of prior-year reportable
conditions is in Exhibit 2.

We also noted other matters involving internal control and its operation that we will report to
Corporation management in our management letter, which will be issued as OIG Audit
Report 07-02.

We have provided a draft of this report to the Corporation. The Corporation's response to
our report is included as Appendix A.


This report is intended solely for the information and use of the United States Congress, the
President, Director of the Office of Management and Budget, Comptroller General of the
United States, Corporation, and Inspector General. It is not intended for, and should not be
used by, anyone other than these specific parties.


COTTON& COMPANY
              LLP



Alan Rosenthal, CPA
Partner


November 13,2006
Alexandria, Virginia
                                 EXHIBIT1
                 CORPORATION
                          FOR NATIONALAND COMMUNITY
                                                  SERVICE
                           REPORTABLECONDITION
                             SEPTEMBER^^, 2006

 FINANCIAL
         STATEMENT
                QUALITY
                      CONTROL
                            AND ASSURANCE
                                        IMPROVEMENTS
                                                  NEEDED


The Corporation's internal control and quality assurance procedures over financial
management and reporting need improvement to ensure that accurate and reliable financial
reports can be prepared in a timely manner. The Corporation's financial reporting
department, Accounting and Financial Management Services (AFMS), is responsible for
preparing financial statements as well as ensuring that all accounting transactions are
accurate and recorded in accordance with appropriate accounting principles.

The Corporation did not have sufficient and effective quality control procedures over its draft
financial statements and related footnote disclosures. This resulted in a significant number of
auditor comments and several versions of the financial statements and footnotes. In addition,
the Corporation was unable to adhere to agreed-upon reporting deadlines. For example:

       .       The year-end trial balance and financial statements were submitted by the
               Corporation after the scheduled delivery date and contained errors and
               omissions that resulted in three subsequent revisions.

       .       Capital property and capital lease supporting schedules were not maintained
               throughout the fiscal year. The Corporation did not maintain adequate records
               for approximately $2 million of capital additions.

       .       Increases and decreases in unobligated balances for expired funds were not
               accounted for using appropriate general ledger accounts for upward and
               downward adjustments, resulting in approximately $6.5 million of
               misstatements on the Statement of Budgetary Resources (SBR).

       .       Differences of $2.5 million in the relationship between unexpended
               appropriations in the proprietary accounts and unobligated balances and
               undelivered orders in budgetary accounts were not researched to determine
               validity. The invalid differences are indicative of accounting posting errors.

       .       A misclassification of budget object codes (BOC) during cost allocation
               resulted in a $15 million discrepancy between member stipends and salaries
               and benefits that was not detected by AFMS.

       .       Use of a trial balance that omitted opening account balances resulted in the
               Corporation overstating unfunded Federal Employees Compensation Act
               (FECA) liability by approximately $2.1 million.

       .       Liability for the Volunteer Health Claim Accrual was overstated by $5.1
               million as the result of transposition of numbers and data entry errors.
       .      Adjustments were recorded in the Corporation's Momentum accounting
              system to reconcile to the FACTS I1 data submitted to Treasuly without
              supporting documentation for the adjustments.

       .      The general ledger contained accounts with unnatural balances that were not
              investigated for determining validity.

       .      The Corporation did not recognize all imputed expenses and financing related
              to Treasury's Judgment Fund.

       .      The ending Fiscal Year (FY) 2005 account balances did not agree with
              beginning FY 2006 balances due to the fact that adjusting entries were posted
              to incorrect accounting periods.

       .      The June 30,2006, SBR contained a misstatement of approximately $11
              million for the line item "Less distributed offsetting
                                                                   - receipts" in the "Outlays"
              section due to the omission of a general ledger account balance.

       .      Purchases and sales of securities included in investing activities in the
              Statement of Cash Flows as of June 30,2006, were not the actual amounts
              paid or received due to the fact that they included the applicable discount or
              premium. Operating activities were misstated by a similar amount.

Recommendations

We recommend that existing procedures he reviewed and enhanced to ensure that all
financial transactions are properly recorded, and that accurate and reliable financial
statements and footnotes can he prepared on a timely basis. Specifically, we recommend:

       .      Performing additional analytical procedures, such as relationship testing and
              fluctuation analysis.

       .      Developing and implementing checklists to ensure timely, accurate, and
              complete financial reporting in accordance with applicable accounting
              principles.

       .      Having an independent review conducted by individuals not associated with
              the Corporation's daily financial management and reporting responsibilities.

       .      Providing training and continuing education for financial management
              personnel.

       .      Producing accruals on a quarterly basis in order that quarterly financial
              statements comply with generally accepted accounting principles and facilitate
              fiscal year-end financial reporting.
FY 2005 Finding                                        Type              Status
Monitoring of Grantee Activities            2002: Reportable Condition   Closed
                                            2003: Reportable Condition
                                            2004: Reportable Condition
                                            2005: Reportable Condition
Personnel and Payroll Processing Internal   2005: Reportable Condition   Closed
Controls
         APPENDIX

CORPORATION
         RESPONSE TO REPORT
                                 ~ ~ ~ ~ o&" d " ~ * ~
                                 COMMUNITY
                                 SERVICEEZ!-



Date:         November 15,2006

To:           Carol Bates, Assistant Inspector General for Audit

From:          Jerry Bridges, Chief Financial

Subject:      Fiscal 2006 Financial Audit Report


Thank you for the opportunity to comment on the fiscal 2006 financial audit report (OIG
Report 07-01). We are pleased that the two prior-year reportable conditions have been
favorably resolved, especially in the area of grants oversight and monitoring. As you
know, strengthening our stewardship of Federal grant funds has been a top management
priority. Through the hard work and dedication of hundreds of Corporation staff
members and the cooperation and support of our grantees, we have achieved a milestone
in which we all should take much pride. Our discussion on the specific issues raised in
the audit follows.

Cotton & Company reports that the Corporation did not have sufficient and effective
quality control procedures over its draft financial statements and related footnote
disclosures to ensure that accurate and reliable financial reports can be prepared in a
timely manner and recommends that, among other things, the Corporation perform
additional analytical procedures, develop and complete additional checklists for financial
reporting, and provide training and continuing education for financial management
personnel.

In support of its conclusion on the timeliness of the Corporation's preparation of the
financial statements Cotton & Company states that the Corporation was unable to adhere
to agreed-upon auditor deadlines to provide information. In support of its conclusion
regarding the preparation of accurate financial statements Cotton & Company states that
it had a number of comments on the financial statements and footnotes. The Corporation
disagrees with Cotton & Company's conclusions.

Timeliness of Financial Statement Preparation

The Corporation's schedule for preparing financial statements is designed to meet OMB
and Treasury reporting requirements, which the Corporation does on time without
exception throughout the year. Cotton & Company asserts that "the year-end trial
balance and financial statements were submitted after the scheduled delivery date and
contained errors and omissions that resulted in three subsequent revisions." This

                         1201 New York Avenue, NW c Washington, DC 20525
                               202-606-5000 * www.nationalservice.org
                                                                                        ~~!+?.~~~
                                                                                        Fk&om Corps
                                                                                                      dL
                                                                                                       2




                        Senior Corps -r AmeriCorps iLearn and Serve America              ~IebcPlcaidcnTaC d lo Saviavi
statement is incorrect. In fact, each year the Corporation has reduced the time necessary
to provide information to the auditors. For example, during the 2006 audit the
Corporation provided the pre-closing (period 13) trial balance to the auditors on October
20, six days earlier than in 2005. Similarly, the "period 14" trial balance was provided
eleven days earlier and the "period 15" trial balance seven days earlier than in 2005.
Moreover, the adjustments to the financial statements referenced by Cotton & Company
were completed before the period 13 close, except for one minor adjustment that needs
further research that will be posted in fiscal 2007.

The Corporation has an extensive documented closing process that it uses to minimize
errors and identify possible omissions. Cotton & Company has been provided this
document for the past four years. The Corporation has asked for and received input in
the past and made adjustments if requested. We had no such request this year. The
document identified when and in what sequence activities would take place, and financial
statement preparation activities were scheduled accordingly. Throughout the audit we
provided information to Cotton & Company when requested, including requests for
preliminary (e.g., prior to our review) information that was needed as soon as possible.

In addition. the Coruoration worked with the audit staff on a consistent basis to make
adjustments to the schedule as the audit and the conduct of the Corporation's ongoing
operations dictated. The Chief of Financial Reporting had numerous discussions with
cotton & Company's onsite lead auditor on thd              by client" listing, which the
Corporation tracked to ensure that the auditors were getting all the information they
needed. In most instances the audit manager stated that she had either received the
information or was working with the responsible party directly to get the information.
The Corporation was not made aware of any significant outstanding items during the
course of the audit.

In instances where the information was preliminary or still under review, as with the
period 13 trial balance, the auditors were informed that the Corporation was reviewing
balances in the course of their normal duties and that adjustments were likely. Reviewing  -
results, relationship testing, and fluctuation analysis are key processes the Corporation
utilizes to ensure that its financial statements are correct in all material respects. The
Corporation agrees that, due to the nature of the reporting schedule, the Corporation and
auditor reviews take place concurrently. Management is simply carrying out its
responsibility in an effective and efficient manner while trying to facilitate the
completion of the audit. We strongly object to your characterizing issues raised by
management during its review of fmancial data as an audit finding.

The Corporation understands that time frames are tight, issues arise in the normal course
of business and that audit staffing may be in flux - this is a normal part of producing
audited financial statements. Cotton & Company has changed auditors on every cycle
and, on several occasions, made changes in the middle of the audit causing more time to
be utilized by Corporation staff training the auditors that could have been used
completing the closeout. The Corporation has always accommodated the auditors
because it understands that in order for everyone to complete their jobs there must be
cooperation and transparency in the process.

Based on the Corporation's assessment of the issues identified by Cotton & Company,
the Corporation should be commended for training the Cotton auditors, identifying issues
promptly, and making necessary adjustments to provide the best possible financial
statements for the Corporation.

Capital Assets

It is the Corporation's policy to update its capital asset schedule on an annual basis for its
external financial statements. The Corporation's inventory of capital assets is immaterial
to its financial statements and updating the schedule quarterly for internal financial
statements would not be cost effective or provide useful information for management.
However, the Corporation does maintain adequate records supporting changes to its
capital asset account. Specifically, for the modular furniture cited by the auditors, in
fiscal 2005 the Corporation entered into a Reimbursable Work Agreement @WA) with
the General Services Administration (GSA) for furniture as part of the Corporation's
headquarters lease renewal. The RWA, the Corporation's contract with GSA, identified
the budgeted cost for these items. GSA entered into contracts with vendors and is
responsible for paying and reconciling invoices. The Corporation does not receive or pay
vendor invoices for the modular furniture. At the completion of the project (there are still
open items under the agreement) GSA will close out the RWA and provide the
Corporation with a final accounting for the project. In the interim, GSA provided cost
information related to the systems and office furniture that had been invoiced to date.
The email confirmation and detailed budget schedules prepared by GSA during the build
out provided the Corporation sufficient support for capitalizing the modular fnmiture.

For the Trust Member Module, the confusion was not who held the documentation but
what documentation was requested by the auditors. Accounting staff that normally
provide the invoices had gone for the day when the request was made to the Director of
Accounting (AFMS). The Director of AFMS provided all but two invoices, and stated
that the remaining invoices would be provided in the morning when staff arrived. The
Director followed up with staff and provided the specific invoices to the auditors.

Upwarddownward Adjustments

As documented in its accounting policy and supported by the Momentum general ledger
posting procedures, the Corporation uses the US Government Standard General Ledger
guidance to record the cancellation of expired authority and withdraw funds via FMS
2108 at the end of the 5" year after the authority expires (upwardldownward
adjustments). At the end of the audit Cotton & Company proposed an audit adjustment to
expired and cancelled fimds based on an analysis of trial balance downloads. To
facilitate its review of the adjustment the Corporation requested the criteria used by the
auditors in determining their proposed adjustment, which was provided on November 14.
The Corporation's review of the criterion used by Cotton & Company found that it
pertained to how to use subsequent appropriations to record a payable related to a
cancelled fund. However, this criterion does not pertain to closing a cancelled fund at the
end of the 5" year. Making the proposed adjustment would cause an error on the
Corporation's FMS 2108 (Year-end Closing Statement with Treasury); therefore, the
Corporation declined to make the adjustment.

Unexpended appropriations

As discussed above, the Corporation routinely performs relationship testing, fluctuation
analysis, and reviews its general ledger accounts to determine the validity of balances,
including those related to unexpended appropriations to ensure that its financial
statements are correct in'all material respects. On November 14, Cotton & Company  - -
proposed an audit adjustment for unexp&ded appropriations and provided the
Corporation with an analysis supporting the adjustment. The Corporation replicated the
Cotton & Company prockss to & i r m the results of their proposed adjustment. Our
review determined that the proposed audit adjustment was based on their analysis of
proprietary unexpended appropriations relative to budgetary unobligated balances and
undelivered orders using the Treasury "Tie point" edit 19. In e&t 19, Treasury
specifically states that this tie point will only work for Appropriated Funds, excluding
reimbursable activity. Our review of Cotton & Company's analysis confirmed that
Cotton & Company incorrectly included reimbursable activity in the analysis supporting
their proposed adjustment. Making the proposed adjustment would cause an error on the
Corporation's FMS 2108 (Year-end Closing Statement with Treasury); therefore, the
Corporation declined to make the adjustment.

MisclassiJication of Budget Object Codes

As discussed above, the Corporation has an extensive documented closing process that it
uses to minimize errors and identify possible omissions, which includes relationship
testing and fluctuation analysis. d&ng the ~ o r ~ o r a t i ~compilation
                                                               n's        and reviewof the
financial statements, both the Deputy CFO and the Deputy Director of AFMS annotated a
variance in the allocation of stipends in the expense footnote based on their review.
While the total was correct there was an unusual variance in individual line items. The
variance was caused by an upgrade to the cost allocation module that automated a
previously manual process. The Corporation researched the issue and reversed the
manual adjustment. The Corporation reran the cost allocation module the next day and
provided supporting documentation to the auditors. This is exactly how the process was
designed to work.

FECA Liability

The calculation of the unfunded FECA liability was one of the last entries to the period
13 preliminary statements. The preliminary statements were provided to the auditors
with the understanding that they were still under review by the Corporation and
adjustments were likely. As noted above, reviewing results and variances is one of the
key processes for the Corporation to ensure that its financial statements are correct in all
material respects. The documentation for this particular transaction was reviewed prior
to its posting but an error was made when it was posted (the entry accrued the entire
liability rather than the incremental amount as it should have). After the accrual was
processed, the Director of AFMS identified the variance and requested it be researched.
AFMS was working on the issue prior to the auditors mentioning it. After AFMS review,
an adjustment was made to post the incremental amount.

Liability for the Volunteer Health Claims

The Corporation agrees that, due to a cell formula error, there was an error in the
calculation of the Liability for the Volunteer Health Claims, but again notes that this
entry was under review at the time the auditors brought it to AFMS. As with FECA, this
was one of the last entries to the preliminary statements. After processing the accrual, the
Director of AFMS identified a variance during his routine review of the adjustments
processed in period 13 and asked the Chief of Financial Reporting to research the entry.
The auditors did identify the erroneous cell formula in the spreadsheet used to calculate
the accrual before AFMS had completed its review. An adjustment was made the next
day.

FACTS I1 Aiijustments

The Corporation performs reconciliations between accounts monthly, quarterly and
annually. Not only do FACTS 11submissions require the Corporation to adjust budgetary
account balances but it requires reconciliation with data government-wide. The
Corporation uses worksheets with FACTS I1 edits to identify the cause of any
differences. Differences are routinely researched and errors, if any, are corrected on a
quarterly basis as required by Treasury. At the end of the year, FACTS I1 adjustments
are made in accordance with Treasury and OMB regulations. For the fiscal 2006 year-
end submission, the Corporation made total cash adjustments of $1 1 thousand for the 26
appropriations the Corporation reports on FACTS 11. Budgetary account adjustments
totaled $397 thousand across the 26 appropriations, but on a consolidated basis netted to
zero. This indicates the budgetary account postings of over $900 million agreed to
Treasury in total but some minor differences occurred between funds. These adjustments
are input into Momentum and corrected on the following FACTS I1 submission. Data
submitted on the FACTS I1 is supported by the cash reconciliation, payroll reconciliation,
and Treasury 224 reports.

Unnatural Balances in General Ledger Accounts

The Corporation routinely reviews its general ledger balances to determine the validity of
the balances. The examples cited by the auditors had been identified by the Corporation
and were under research (and one had already been corrected) when the auditors
mentioned the issue. According to our research, one transaction was correct and the
second was a duplicated transaction. The auditor asked for our analysis of the account
and the associated entry so he could propose an adjustment. The original entry was based
on an erroneous Cotton & Company proposed adjustment in the fiscal 2004 audit that
should not have been posted. The appropriate correcting entry will be processed in fiscal
2007.



The Corporation receives quarterly updates from the Office of General Counsel (OGC)
on the status of Judgment Fund amounts. In addition, OGC assesses the potential for
judgments against the Corporation as part of the financial statement preparation process.
Through this process we determined that there were no significant judgments against the
Corporation for the fiscal year. However, when checking the payments on the
Department of Justice's web page, staff did not observe that the Corporation is listed
under two different names on the judgment fund web site (C.N.C.S and Corp for Natl &
 Comm). The information under "Corp for Natl & Comm" listing was missed, causing a
minor understatement in imputed financing. AFMS added the second web page to its
quarterly review and is following up with the Department of Justice to determine the
reason for the second website listing.

Opening Balance Adjustments

The Corporation agrees that there were some minor differences in its opening balances
that were already under research at the time the auditors brought them to the
Corporation's attention. Specifically, the balance in account 4801 and the Unobligated
Balance brought forward was a net $6 thousand posting issue identified by A F M S prior
to the auditors being on site. When asked about the issue, the Director of AFMS stated
that staff had been researching the balances and that the adjustments would be processed
prior to year end. The adjustments were made in September. The second difference cited
(totaling $20.16) was due to an error by the auditor. The Corporation had made the
correction but the auditor used the incorrect trial balance when reviewing the account.
The other differences were a $622.16 error in accounts 21 10.91 and 21 10.99, and a
$2,473.28 error in accounts 3 100 and 3310, which were identified by AFMS prior to the
auditor's finding. The Financial Reporting Office analyzed the errors and made
correcting entries. These minor differences were identified during a review of 100
percent of the Corporation's opening balances and were the only errors identified.

Presentation of Statement of Budgetary Resources in Interim Financial Statements

The Corporation agrees that it omitted an account while updating the formula to
accommodate the change in the format of the SF-133 made by OMB in the summer of
2006. Specifically, the line for "offsetting receipts" did not include the new account 531 1
established this year. This oversight was corrected well before the year-end external
statements. The format for the statement had changed just prior to the preparation of the
third quarter statements and was still under review.
Purchases and Sales of Securities
Based on a request from Cotton & Company, AFMS researched a presentation issue
related to the purchase and sale of securities on the Statement of Cash Flows. The
Corporation had been using the presentation on the statement since the 1990's as agreed
to with its previous auditors. Based on our current research, the Corporation agreed to
"gross up" the presentation for the year-end statements and provided the auditors with the
supporting information. After the change was made, a Cotton & Company auditor came
back with questions four days in a row tying up four different staff members at varying
times. We explained the calculation to arrive at the amounts in the cash flows each time.
The auditor continued to state that the calculation did not work, until on the 4fhday we
finally reviewed her spreadsheet and found an error in one of the cells. The auditor had
made an input error (reversed the mathematical sign) thereby not being able to balance to
the correct cash flows amount (similar to the error Cotton wrote up the Corporation for
on the Health Benefit accrual).

Compliance with Laws and Regulations
Regarding cost-share agreements entered into with non-Federal AmeriCorps sponsors, we
are working in consultation with the Office of Management and Budget to ensure that
such agreements are executed and recorded in conformity with statutory authority and
OMB Circular A-1 1. Our consultations with OMB will include identifying corrective
action, if any, that is warranted. Based on the information we have, this matter does not
have a direct and material effect on determination of financial statement amounts.

Audit Issues
Finally, I would be remiss in my response if I did not respectfully express our very deep
concerns about the manner in which the audit was conducted. Before detailing our
concerns, I acknowledge that the external deadlines that we all face in completing the
annual financial statements audit are not of our making. The limited time available to
close our books and complete the audit means that there must be a high level of trust and
transparency among all involved for the audit to be successful. In my judgment, Cotton
& Company fell short this year on that score.

I believe that serious planning, staffmg, and supervision deficiencies in the Cotton &
Company audit were the cause of this breakdown. The Corporation raised concerns
about communication breakdowns with the audit staff early in the audit and had been
assured that Cotton & Company would increase its supervision of staff. This apparently
did not occur. If it had, I do not believe we would have had the current communication
failures or the earlier problems of auditors sharing passwords in violation of Corporation
policy, the unauthorized attempt to hack into our computer systems that could have
caused irreparable harm to the Corporation, and other errors by the auditors in conducting
their field work.

The sequence of events whch occurred at the end of this audit is of particular concern to
me. Specifically, on Wednesday, October 25, I met with Alan Rosenthal and Tom
Schweinefuss, the Cotton & Company partner and manager, respectively, responsible for
the fiscal 2006 audit, about a question they had on the Corporation's treatment of
reimbursable VISTA cost share agreements. Cotton & Company was concerned that the
Corporation was not following OMB Circular A-1 1in how these reimbursables were
recorded. Prior to the meeting the Corporation's General Counsel provided Cotton &
Company with an opinion letter spelling out the Corporation's authority for its treatment
of the VISTA cost shares and opining that the Corporation was acting within its
authority. At the meeting, Mr. Rosenthal and I agreed that the amount in question was
immaterial to the financial statements and that I would pursue the issue with OMB in
consultation with Cotton & Company after we had completed the audit.

On Wednesday, November 1, I met with you to discuss the status of the audit. At that
time you stated that you had spoken with Mr. Rosenthal and Mr. Schweinefuss, and were
pleased to report that the Corporation had cleared the reportable conditions related to
grants monitoring and human capital identified in the 2005 audit andthere were no other
significant issues at this time. The Corporation's Chief Executive Officer and Board of
Directors were updated on the status of the audit based on this information.

On November 3, Cotton & Company staff, including Mr. Rosenthal and Mr.
Schweinefuss, met with the Director of Accounting and Chief of Financial Reporting to
go over an issue with the presentation of net position on the balance sheet. Originally,
the Corporation planned to present the component balances on the statements. However,
because the Corporation follows FASB in the preparation of its financial statements (with
the exception of the Statement of Budgetary Resources which is prepared under FASAB)
the balance in unobligated appropriations can appear abnormal when aggregated with
trust fund and gift fund activity. The Director of Accounting agreed to the alternative
presentation but stated that he would have to clear the change with the Deputy CFO for
Financial Management. At no time during the meeting did Cotton & Company inform
the Director of Accounting that they had modified the report and were going to identify
financial reporting as a reportable condition or include the VISTA cost share question as
a compliance matter.

On Monday, November 6, Cotton & Company staff, including Mr. Rosenthal and Mr.
Schweinefuss, met with the Corporation's Deputy CFO to discuss the resolution of the
presentation issue previously discussed with the Director of Accounting. At the meeting,
Cotton & Company presented the Deputy CFO with a list of items that they considered
immaterial on their face but had now concluded that when taken together were indicative
of a reportable condition in financial reporting. Cotton & Company also stated that
unless the Corporation produced documentation beyond the General Counsel's opinion
letter, Cotton & Company would include the cost share question as a compliance matter
in the report.

The Deputy CEO reviewed the write up first presented to the Corporation at this meeting
and disagreed with Cotton & Company's characterization of the issues, and stated that
individually or in the aggregate they did not amount to a reportable condition. The
Deputy CFO stated that he subsequently discussed the findings with you and the OIG
audit manager responsible for this report and that you stated you would look into the
issues raised.

The Deputy CFO also called to inform me of the modification of the report and Cotton &
Company's change in position on the VISTA cost share question and requested my
involvement in the discussion. I reminded Mr. Rosenthal of the approach we had agreed
to. Mr. Rosenthal stated that he had changed his mind and that he was going to pursue it
as part of this audit. Of particular concern to me is the fact that Mr. Rosenthal did not
disclose to me that Cotton & Company would initiate a unilateral communication with
OMB, contrary to our agreement days before that I would be responsible for that
communication. Unbeknownst to me, while I was preparing our written submission to
OMB, Cotton & Company initiated communications by telephone with OMB. I cannot
emphasize strongly enough how this has undermined the confidence we have in the trust
and transparency of Cotton & Company.

In the evening on Tuesday, November 7, Cotton & Company requested that the
Corporation provide the detailed transactions for all open DVSA funds covering the
period 2001 through 2006 in Excel files by 9 a.m. on November 9. After questioning the
relevance of the request to the fiscal 2006 audit, Cotton & Company narrowed its request
to activity occurring in fiscal 2006. All of the data in this "new" request had been
previously provided to Cotton & Company throughout the audit on a routine basis. The
Corporation agreed to put the data from the new request into an Access data base (data
had previously been provided in Excel files as the auditors had requested). The
Corporation provided Cotton & Company the data on November 8. On November 9,
OIG informed the Deputy CFO that Cotton & Company was now considering
disclaiming on the financial statements if it couldn't get satisfied with "outstanding
items" over the weekend.

In my opinion, this sequence points out a serious shortcoming in the conduct of this audit.
Moreover, characterizing minor issues that are routinely resolved throughout the year as a
reportable condition seems to fall short of the objectivity required of auditors. Certainly,
Corporation staff will make mistakes in carrying out their duties, and the Corporation is
subject to the same difficulties other agencies experience when dealing with the central
agencies. However, the Corporation routinely reconciles its accounts throughout the
year and has adequate procedures in place to ensure that all accounts are materially
correct. This is evidenced in part by the total of $11 thousand in cash adjustments for our
26 funds reported on Treasury's FACTS I1 report. Accordingly, we respectfully disagree
with the finding related to financial reporting.
